No.
IN THE

Supreme Court of the United States
In Re Christopher Gary Baylor,

ON EMERGENCY PETITION FOR A WRIT OF MANDAMUS TO THE
UNITED STATES EIGHTH CIRCUIT COURT OF APPEALS

CERTIFICATE OF SERVICE

I HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5, that on the 20th
day of January, 2021, a true copy of the Petition for Emergency Writ of Mandamus was
sent via U.S. Express Mail to Michael E. Gans of the United States Court of Appeals
Eighth Circuit, Thomas F. Eagleton Courthouse 111 South 10th Street St. Louis, MO.
63102, and; U.S. Certified Mail to Kate M. Fogarty of the United States District Court,
202 U.S. Courthouse, 300 S. Fourth Street, Minneapolis, MN 55415.

Per Eighth Circuit, only Petitioner is a party to this case. No other service is
required.

EXECUTED, this 20th day of January 2021.

I declare under penalty of perjury that the foregoing is true and
correct. 28 U. S. C. ยง1746.
%

A
Against A Fatherless America
A! Christopher Gary Baylor
Advocate for the Prevention of
Child Abduction, Abuse & Alienation
491 Baltimore Pike, 105
Springfield, PA 19064
(484) 682-2605
edo_delight@comcast.net

